No. 19-661
IN THE

Supreme Court of the United States
MYNOR ABDIEL TUN-COS, ET AL.,
Petitioners,
v.
B. PERROTTE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF SERVICE
I, David M. Zionts, a member of the Bar of this Court, certify that on March
10, 2020, I caused three copies of the Petitioners’ Reply to the Brief in Opposition in
the above-captioned case to be served by FedEx on Respondents’ counsel of record at
the address below:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
March 10, 2020

s/ David M. Zionts
David M. Zionts
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com
Counsel for Petitioners

